             CLOSEOUT MEMORANDUM FOR M-01030009
On 27 February 2001, we received an email message from t h e complainant1 that
contained allegations of misconduct in science. The complainant alleged that, when he
was a staff scientist at the university; a former colleague, subject 1,3 and his colleague's
graduate students, subjects 2 ' and 3: stole his intellectual property. The complainant
explained that he had shared some of his earlier industrial6research work with subjects 2
and 3, each of whom used some of his ideas as the basis for their Ph.D. dissertation
research. The complainant considered their use of his ideas and subject 1's
encouragement and support of using these ideas as plagiarism (intellectual theft). Three
NSF grants7 supported subjects 1,2, andlor 3 at the time the complainant worked with the
subjects.

The complainant came to our office to discuss the allegations. He showed us numerous
notebooks that he said contained his previous research work with industry. He told us
which pages of the notebooks to copy, which we did. Because of the complicated nature
of the complainant's allegations, we asked him, and he agreed, to clearly mark and
cross-reference copies of his documents that contained his original ideas with the
documents that contain the alleged plagiarism. In subsequent email messages from the
complainant, he informed us that.he was preparing,the requested information.

While waiting for the complainant to send the promised materials, we learned that he had
notified the University about the same allegations. The University contacted us and
accepted the deferral of the inquiry. The University provided its inquiry report to us.
The report included email messages sent by the University to the complainant, requesting
documentation related to the allegations, even a final email message that requested just
one document that it could use to begin its evaluation of the allegations. However, the
complainant failed to provide the University with any documentary evidence to evaluate
the allegations. The University determined that, lacking any substantive documentation
from the complainant to evaluate the allegations, it would close the matter.

The complainant's allegations of intellectual theft are focused upon several publications.
The complainant is a co-author on two of the publications. He claimed his name was




                                       Page 1 of 2                                M 01-09
added to these publications against his will. Two of the publications were in preparation
at the time of the allegation, and two others were Ph.D. dissertations. The complainant
told us that he did not have copies of the unpublished manuscripts or the dissertations.

We attempted to assist the complainant in obtaining the information he needed to
complete his promised marked and cross-referenced document based information. For
example, we offered to provide him with a copy of one of subject 1's proposals that he
said he needed, an offer he did not accept. We explained how interlibrary loan requests
were made, so that he could get copies of theses and other publications he said he needed.
We also offered to pay the costs of shipping the information to us, from anywhere in the
world. However, after 7 months, the complainant has not still not provided our office
with any of the promised information specifically related to this case.

The complainant repeatedly explained that the evidence in this case was overwhelmingly
against the three subjects, but, because he failed to provide us with substantive useable
documentation in support of the allegations of intellectual theft, we concur with the
University's decision to close this case based on a lack of evidence.

This inquiry is closed and no further action will be taken.

cc: Investigations, IG
